Department of Health and Human Services
       Department of the Interior

                     OFFICES OF
                INSPECTORS GENERAL




 THE U.S. VIRGIN ISLANDS DEPARTMENT
  OF HUMAN SERVICES MAY NOT HAVE
   PROVIDED HEAD START SERVICES
      TO THE NEEDIEST CHILDREN




  Inquiries about this report may be addressed to the Department of Health and
    Human Services, Office of Inspector General’s Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




    Gloria L. Jarmon                               Kimberly Elmore
 Deputy Inspector General               Assistant Inspector General for Audits,
                                             Inspections and Evaluations
                                  June 2014
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 The U.S. Virgin Islands may not have ensured that the neediest children received priority
 when filling Head Start enrollment slots.

WHY WE DID THIS REVIEW

The U.S. Department of the Interior, Office of Inspector General (Interior), requested that our
offices conduct a joint review of U.S. Virgin Islands (Virgin Islands) Department of Human
Services (DHS) processes for determining Head Start program eligibility, as Interior has
cognizance over Federal funds expended in the Virgin Islands and our office has experience
auditing Head Start programs. In its request, Interior indicated that it had received complaints
that DHS was not enrolling children in Head Start with the greatest need for program services.

The objective of this review was to determine whether DHS ensured that the neediest children
received priority when filling Head Start enrollment slots.

BACKGROUND

The U.S. Department of Health and Human Services, Administration for Children and Families
(ACF), administers the Head Start program through its Office of Head Start (OHS), which
assigns each Head Start grantee a specific number of children that the grantee is required to
serve, known as the “funded enrollment.”

Children are automatically eligible for enrollment in the Head Start program if they are
homeless, in foster care, or a recipient of public assistance. (For reporting purposes, we refer to
these children as categorically eligible.) Grantees are required to fill 10 percent of their funded
enrollment with children with disabilities who need special education and related services. (A
grantee may request that ACF waive the 10-percent requirement if the grantee can document that
it made a reasonable effort to comply with the requirement but that there were an insufficient
number of children with disabilities in the community who wished to attend an appropriate
program.) Remaining slots are filled with children who are (1) eligible based on their family’s
income and (2) determined to have the greatest need for services based on criteria established by
each grantee. Children not initially enrolled in the program must be placed on a waiting list and
ranked in accordance with grantees’ priority selection criteria.
In the Virgin Islands, DHS administers the Head Start program. DHS provides Head Start
services at 24 centers located on the islands of St. Thomas, St. Croix, and St. John. For the grant
period September 1, 2009, through August 31, 2010, OHS awarded DHS $8,301,980 in Head
Start funds to provide services to 894 children. During this period, DHS’s Head Start program
was fully enrolled, and as of August 31, 2010, 214 children were on the program’s waiting list.
DHS determines program eligibility for each child and assigns scores through its own priority
point system to rank children for the program based on their level of need. DHS uses a
computerized system known as the Child Output Planning Assessment (COPA) to rank children
in accordance with its priority point system criteria.



U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                             i
HOW WE CONDUCTED THIS REVIEW

We reviewed documentation supporting DHS’s determinations for Head Start enrollees. Of the
893 children enrolled in the Virgin Islands’ Head Start program as of August 31, 2010, we
reviewed documentation for 100 randomly selected children determined eligible based on DHS’s
priority point system, which is based, in part, on income and family size; 10 judgmentally
selected categorically eligible children; and 10 judgmentally selected children with disabilities.

WHAT WE FOUND

We could not determine whether the neediest children in the Virgin Islands received priority
when DHS filled Head Start enrollment slots because DHS (1) entered inaccurate information in
COPA when calculating children’s financial eligibility, (2) did not retain documents used to
determine whether enrollees were categorically eligible, and (3) did not meet the required
enrollment level for children with disabilities.

We determined that 11 of the 100 children in our random sample received more priority selection
points than they should have. On the basis of our sample results, we estimated that 84
children—nearly 1 in every 10—enrolled in the Head Start program as of August 31, 2010,
received more priority selection points than they should have, potentially placing them in the
Head Start program ahead of needier children on the program’s waiting list because DHS retains
waiting list priority rankings only for the current enrollment.

WHAT WE RECOMMEND

We recommend that DHS ensure that the neediest children receive priority when filling Head
Start enrollment slots by:

    •   ensuring that financial eligibility determinations are based on accurate information,

    •   retaining a record of the documents reviewed and relied upon to determine whether a
        child is categorically eligible, and

    •   ensuring that the enrollment and/or waiver requirements are met for children with
        disabilities.

DEPARTMENT OF HUMAN SERVICES COMMENTS AND OUR RESPONSE

In written comments on our draft report, DHS generally concurred with our findings and
recommendations. In addition, DHS described steps it had taken or plans to take to address our
first and third recommendations. DHS disagreed with our findings for two of the children we
reviewed, stating that the children’s family situations were documented, but no formal
documentation of their homelessness could be obtained. Neither child’s case file included
adequate information about where the child’s family was reportedly residing or that DHS
confirmed the family’s living situation.




U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                        ii
                                                    TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objective ...........................................................................................................................1

         Background .......................................................................................................................1
               The Head Start Program ........................................................................................1
               U.S. Virgin Islands’ Head Start Program ..............................................................1

         How We Conducted This Review .....................................................................................2

FINDINGS ...................................................................................................................................2

         Family Income Improperly Calculated..............................................................................3

         Categorically Eligible Determinations Not Supported ......................................................3

         Disabled Population Enrollment Not Met .........................................................................4

RECOMMENDATIONS .............................................................................................................4

DEPARTMENT OF HUMAN SERVICES COMMENTS .........................................................5

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................5

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY ................................................................6

           B: STATISTICAL SAMPLING METHODOLOGY .....................................................8

           C: SAMPLE RESULTS AND ESTIMATES .................................................................9

           D: DEPARTMENT OF HUMAN SERVICES COMMENTS .......................................10




U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                                                         iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The U.S. Department of the Interior, Office of Inspector General (Interior), requested that our
offices conduct a joint review of U.S. Virgin Islands (Virgin Islands) Department of Human
Services (DHS) processes for determining Head Start program eligibility, as Interior has
cognizance over Federal funds expended in the Virgin Islands and our office has experience
auditing Head Start programs. In its request, Interior indicated that it had received complaints
that DHS was not enrolling children in Head Start with the greatest need for program services.

OBJECTIVE

Our objective was to determine whether DHS ensured that the neediest children received priority
when filling Head Start enrollment slots.

BACKGROUND

The Head Start Program

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), administers the Head Start program through its Office of Head Start (OHS),
which assigns each Head Start grantee a specific number of children that the grantee is required
to serve, known as the “funded enrollment.”

Program requirements are detailed in the Improving Head Start for School Readiness Act of
2007 (Head Start Act), P.L. No. 110-134. Children are automatically eligible for enrollment in
the Head Start program if they are homeless, in foster care, or a recipient of public assistance.
(For reporting purposes, we refer to these children as categorically eligible.) In addition,
grantees are required to fill 10 percent of their funded enrollment with children with disabilities
who need special education and related services. Remaining slots are filled with children who
are (1) eligible based on their family’s income 1 and (2) determined to have the greatest need for
services based on criteria established by each grantee. Children not initially enrolled in the
program must be placed on a waiting list and ranked in accordance with grantees’ priority
selection criteria.

U.S. Virgin Islands’ Head Start Program

In the Virgin Islands, DHS administers the Head Start program. DHS provides Head Start
services at 24 centers located on the islands of St. Thomas, St. Croix, and St. John. For the grant
period September 1, 2009, through August 31, 2010, OHS awarded DHS $8,301,980 in Head




1
 A child is considered income eligible if his or her family’s annual income before taxes is equal to or less than the
Federal Poverty Guidelines issued each year in the Federal Register by HHS.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                               1
Start funds to provide services to 894 children. 2 During this period, DHS’s Head Start program
was fully enrolled, and as of August 31, 2010, 214 children were on the program’s waiting list.
DHS determines program eligibility for each child and assigns scores through its own priority
point system to rank children for the program based on their level of need. DHS uses a
computerized system known as the Child Output Planning Assessment (COPA) to rank children
in accordance with its priority point system criteria.

HOW WE CONDUCTED THIS REVIEW

We reviewed documentation supporting DHS’s priority point scoring determinations for Head
Start enrollees. Of the 893 children enrolled in the Virgin Islands’ Head Start program as of
August 31, 2010, we reviewed documentation for 100 randomly selected children determined
eligible based on DHS’s priority point system, which is based, in part, on income and family
size; 10 judgmentally selected categorically eligible children; and 10 judgmentally selected
children with disabilities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                  FINDINGS

We could not determine whether the neediest children in the Virgin Islands received priority
when DHS filled Head Start enrollment slots because DHS (1) entered inaccurate information
into COPA when calculating children’s financial eligibility, (2) did not retain documents used to
determine whether enrollees were categorically eligible, and (3) did not meet the required
enrollment level for children with disabilities.

We determined that 11 of the 100 children in our random sample received more priority selection
points than they should have. On the basis of our sample results, we estimated that 84
children—nearly 1 in every 10—enrolled in the Head Start program as of August 31, 2010,
received more priority selection points than they should have, potentially placing them in the
Head Start program ahead of needier children on the program’s waiting list because DHS retains
waiting list priority rankings only for the current enrollment.




2
 DHS’s funded enrollment was for 894 children. However, grantees may elect to not fill a vacancy when 60
calendar days or less remain in the program year. As a result, DHS’s actual enrollment as of August 31, 2010, was
893 children.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                           2
FAMILY INCOME IMPROPERLY CALCULATED

Head Start grantees must verify a child’s family income before determining that the child is
financially eligible to participate in the Head Start program. 3 Income thresholds for determining
children’s financial eligibility for the Head Start program are issued annually by HHS. These
thresholds, known as the Federal Poverty Guidelines, factor in family income and family size to
make incomes comparable among households of different sizes. Grantees must also establish
and maintain effective recordkeeping systems to provide accurate and timely information
regarding children. 4

To determine children’s financial eligibility, DHS entered children’s family income and family
size in COPA. DHS also entered the annual income threshold in COPA. The further below the
income threshold a child was determined to be, the more priority selection points were awarded
to the child.

DHS did not always use accurate data to calculate financial eligibility. Specifically, DHS did not
accurately enter family income or family size into COPA and did not use the annual income
threshold from the appropriate year to determine financial eligibility. DHS acknowledged that
COPA was not always updated in a timely manner to reflect changes to family income, family
size, or poverty levels. As a result, 11 of the 100 children in our sample received more priority
selection points than they should have.

On the basis of our sample results, we estimated that 84 of the 762 children 5 enrolled in the Head
Start program as of August 31, 2010 (not because of disability or categorical eligibility), received
more priority selection points than they should have. (The details of our sample results and
estimates are shown in Appendix C.) However, we were unable to determine whether any of the
11 children in our sample were placed in the Head Start program ahead of needier children on
the program’s waiting list. DHS was unable to provide us with a waiting list for the period
covered by our review that ranked children in order of priority because COPA retains waiting list
priority rankings only for the current enrollment.

CATEGORICALLY ELIGIBLE DETERMINATIONS NOT SUPPORTED

OHS requires Head Start grantees to verify that a child is homeless, in foster care, or receiving
public assistance. Specifically, grantees are required to retain a record of documents reviewed to
support this determination and to maintain a signed statement of a Head Start employee that the
child was found to be categorically eligible.


3
  Head Start regulations (45 CFR § 1305.2(e)) define “family” as all persons living in the same household who are
(1) supported by the income of the parent(s) or guardian(s) of the child participating in the program and (2) related
to the parent(s) or guardian(s).
4
    45 CFR § 1304.51(g).
5
  Our sampling frame included 762 children. For the remaining 131 children enrolled in the Head Start program as
of August 31, 2010, we judgmentally selected 10 categorically eligible children and 10 children with disabilities for
review.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                               3
For 3 of the 10 categorically eligible children we judgmentally selected for review, DHS did not
retain a record of the documents that it reviewed and relied upon to determine that the child was
categorically eligible. Of the three children, two were reportedly homeless, and one was
reportedly receiving public assistance.

DISABLED POPULATION ENROLLMENT NOT MET

At least 10 percent of Head Start grantees’ total funded enrollment levels must be filled with
children with disabilities who need special education and related services (45 CFR § 1305.6(c)). 6
OHS guidance states that only children formally determined to be disabled should be classified
as children with disabilities. 7 A grantee may request that ACF waive the 10-percent requirement
if the grantee can document that it made a reasonable effort to comply with the requirement but
that there were an insufficient number of children with disabilities in the community who wished
to attend an appropriate program.
On the basis of its funding level during our audit period, DHS should have enrolled 89 children
with disabilities (10 percent) in its Head Start program; however, it enrolled only 81 children
with disabilities (9 percent). DHS officials stated that other children enrolled in the program
may have been disabled, but that formal determinations for these children had not yet been made.
Therefore, the officials stated, they did not think it was necessary to request a waiver from ACF
to allow its disabled population to be underenrolled.

                                          RECOMMENDATIONS

We recommend that DHS ensure that the neediest children receive priority when filling Head
Start enrollment slots by:

    •    ensuring that financial eligibility determinations are based on accurate information,

    •    retaining a record of the documents reviewed and relied upon to determine whether a
         child is categorically eligible, and

    •    ensuring that the enrollment and/or waiver requirements are met for children with
         disabilities.




6
  45 CFR § 1305.2(a) defines “children with disabilities” as children with mental retardation, hearing impairments
including deafness, speech or language impairments, visual impairments including blindness, serious emotional
disturbance, orthopedic impairments, autism, traumatic brain injury, other health impairments, or specific learning
disabilities who by reason thereof need special education and related services.

7
  Office of Head Start Policy Clarification OHS-PC-K-010, issued June 12, 2007, states that, for Head Start
reporting purposes, a “child with disabilities” must have (1) received a formal evaluation by a multidisciplinary
team, (2) been found to need special education and related services, and (3) have an individualized education
program.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                             4
                    DEPARTMENT OF HUMAN SERVICES COMMENTS

In written comments on our draft report, DHS generally concurred with our findings and
recommendations. In addition, DHS described steps it had taken or plans to take to address our
first and third recommendations.

Although DHS concurred with our second recommendation (documenting categorically eligible
children), it disagreed with our related finding for two of the children we reviewed. DHS stated
that the children’s family situations were documented, but no formal documentation of their
homelessness could be obtained. Specifically, DHS stated that the places where the children’s
families were staying could not provide documentation without jeopardizing themselves and the
families they were sheltering.

DHS’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that DHS should retain a record of the documents reviewed and relied upon to
determine whether a child is categorically eligible, including those used to determine that a child
is eligible because of their being homeless. DHS provided limited information on what it
reviewed as part of its determination that two of the children we reviewed were homeless. In one
case, the only notation of the child’s homelessness was on a Post-it note. In the other case, the
child’s homeless status was written on the COPA application. Neither child’s case file included
adequate information about where the child’s family was reportedly residing or that DHS
confirmed the family’s living situation. 8




8
 We reviewed the children’s case files to determine what documents DHS reviewed and relied upon to determine
whether the children were homeless. The files could have included notes from homeless shelters where the
children’s families previously resided or from individuals who had sheltered the children’s families.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                      5
                       APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered the eligibility of 893 children enrolled in the Virgin Islands’ Head Start
program as of August 31, 2010. We did not perform an overall assessment of DHS’s internal
control structure. Rather, we reviewed only the internal controls related to our objective.

We conducted fieldwork at DHS’s administrative offices in Charlotte Amalie, St. Thomas; and
Christiansted, St. Croix.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed relevant Federal laws, regulations, and guidelines;

       •   held discussions with ACF officials to gain an understanding of Head Start program
           eligibility;

       •   held discussions with DHS officials to gain an understanding of the agency’s policies and
           procedures related to the enrollment of children in their Head Start program;

       •   obtained from DHS a list of 893 children enrolled in the Head Start program as of
           August 31, 2010; 9

       •   eliminated 50 categorically eligible children and 81 children with disabilities for a
           sampling frame of 762 children;

       •   selected a simple random sample of 100 children from the sampling frame of 762
           children;

       •   selected judgmental samples of 10 categorically eligible children and 10 children with
           disabilities 10 and reviewed compliance with qualifying conditions;

       •   obtained and reviewed case record documentation supporting each sampled child’s
           eligibility determination;

       •   estimated the number of children for whom DHS made errors when calculating financial
           eligibility in the total sampling frame of 762 children; and


9
    DHS was unable to provide us with a ranked list of children on the waiting list as of August 31, 2010.
10
  For 10 children that DHS counted as having a disability, we reviewed each child’s case file to determine whether
the child received a formal evaluation by a multidisciplinary team, had been found to need special education and
related services, and had an individualized education program.


U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                            6
    •   discussed our results with DHS officials.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                       7
                    APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of children enrolled in the Virgin Islands’ Head Start program as of
August 31, 2010.

SAMPLING FRAME

The sampling frame was an Excel file containing information for 762 children enrolled in the
Head Start program as of August 31, 2010. The Excel file was obtained from DHS’s COPA
system and adjusted to eliminate 131 children that had selection priority for reasons other than
meeting income requirements (i.e., “categorically eligible” or counted as “children with
disabilities”).

SAMPLE UNIT

The sample unit was a child enrolled in the Head Start program as of August 31, 2010.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 children.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the 762 children. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to calculate our estimates. We estimated the number
of children for whom DHS made errors when calculating financial eligibility at the point
estimate.




U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                                          8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                              Sample Results

                                                                        Sample
               Frame Size                     Sample Size
                                                                        Errors

                   762                             100                     11


                       Estimated Number of Children Who Received More
                        Priority Selection Points Than They Should Have
                     (Limits Calculated for the 90-Percent Confidence Interval)

                              Point estimate                    84
                              Lower limit                       50
                              Upper limit                      130




U.S. Virgin Islands Head Start Enrollment (A-02-12-02002)                         9
          APPENDIX D: DEPARTMENT OF HUMAN SERVICES COMMENTS 





                                                 GOVERNMENT OF THE VIRGIN ISLANDS OF THE UNITED STATES
                                                              Department of Human Services
                                                                     "Working Together to Make A Difference"

                                                                                                        OFFICE OF THE COM MISSIONER


            May 12, 2014

            James P. Edert
            Regiona l Inspector General for Audit Services
            Office of Audit Services, Region II
            Office of Inspector General
            U.S. Department of Health and Human Services
            Jacob K. Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 10278

            Hannibal M. Ware
            Eastern Region Manager
            Audits, Inspections, and Evaluations
            Office of Inspector General
            U.S. Department of the Interior
            1849 C. Street, NW
            MS 4428-MIB
            Washington, DC 20240

            Re: Draft report entitled The U.S. Virgin Islands Department ofHuman Services May
            Not Have Provided Head Start Services to the Neediest Children (A-02-12-02002).

            Dear Mr. Edert and Mr. Ware:

            The U.S. Virgin Islands Department of Human SeNices, Office of Preschool SeNices ­
            Head Start Program , hereby submits the below comments in response to the draft
            reported dated March 31, 2014 entitled The U.S. Virgin Islands Department of Human
            Services May Not Have Provided Head Start Services to the Neediest Children (A-02-12­
            02002).




                         3011 Golden Rock • Christiansted, St. Croix, Virgi n Islands 00820 • (340) 773-2980 ph • (340) 773-6121 fax 

               Knud Hansen Complex Bldg. A • 1303 Hospital Ground • St. Thomas, Virgin Islands 00802 • (340) 774· 1166 ph • (340) 774-3466 fax 





US. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                                                           10
            Response to IG Report dated Marc h 31, 2014
            Page -2­

            Recommendation No_1- ensure that financial eligibility determinations are based
            on accu rate information

            The program concurs with Recommendation No. 1.
            This recommendation stems from Finding Number 1:
            (DHS) ...entered inaccu rate information in COPA when calculating children's financial
            eligibility. Specifica lly, DHS d id not accurately enter family income or fami ly size into
            COPA and did not use the annual income threshold from the app ropriate year to
            determine f inancia l eligibility.

            Response:
            The data entry errors related to family size and/or income were mainly attributab le to
            the fact that after emp loyees entered the referenced information into COPA. the
            manager responsib le did not always cross check the information in COPA with the
            information in the file to ensure accurate data entry, prior to the chi ld being determined
            elig ible. Corrective actions have been implemented: In order to address this
            concern, the recruitment and enrollment procedures were revised . The manager is now
            responsible for verifying the information entered into COPA against the information in
            the files prior to any chi ld being determined eligib le for services. This additional step in
            the app lication process will assist the program with reducing and/or eliminating the
            number of data entry errors.

            The finding that the Program did not use the annual income thresho ld from the
            appropriate year to determine financia l elig ibil ity is due to the fact that the Program
            historically updated t he poverty guide lines upon receipt of each new year' s guidelines
            from HHS, wh ich was usua ll y emailed to the Program in the latter part of January into
            February every year. Since we conduct reg istration year-round, if children were
            registered prior to the new guidel ines for the new schoo l year being inputted into
            COPA. their information was automat ically recalculated and updated by COPA when the
            new guidelines were entered . The Program reviewed all applications to include points
            and income prior to enrollment in the Program when the new schoo l year begins in
            September. This step, we be lieve nullified instances where applicants' initial eligibility
            was calcu lated based upon previous year's gu idelines. Co rrective actions have been
            implemented: As a result of the audit, the Program has taken a more proactive
            approach to obtaining the poverty guidelines by visiting the Health and Human Services
            website dur ing Ja nuary and inputti ng the new guidelines as soon as it is issued. The
            Program has also formed an ERSEA (Eligibility, Recruitment, Selection, Enrollment, and
            Attendance) Committee a part of whose duty is to ensure that the most current poverty
            gu idelines are used when applications are entered .

                         3011 Golden Rock · Christianstcd, St. Croix,Virgin Islands 00820 • (340) 773-2980 ph · (340) 773-6121 fux 

               Knud Hansen Complex Bldg. A• 1303 Hospilal Ground • St. Thomas, Virgin Islands 00802 • (340) 774-1166 ph • (340) 774-3466 fax 





US. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                                                         11
            Response to IG Report dated March 31, 2014
            Page -3­



            Moreover, of the 11 app lications that were found to have been generated using the o ld
            gu idelines, no major differences were discovered as a resu lt of the data entry errors or
            the po ints awarded. Additionally, no children who were deemed eligible based on the
            old guidelines were deemed inel ig ible when the new guidelines were applied.

            Recommendation No. 2 - retain a record of the documents reviewed and relied
            upon to determine whether a child is categorically eligible

            The Program concurs with Recommendation No. 2
            This recommendation stems from Finding Number 2:
            (DHS) ....did not retain documents used to determine whether enrollees were
            categorically eligible .

             Response:
             The Program concurs with the fact that no documentation was provided for the TANF
             fi le; however, we disagree with the request for additional documentation or formal
             documentation for the two (2) homeless families. In both cases, the family's situation
            was documented and no formal documentation could be obtained. In those cases the
             places where the persons were staying could not provide documentation without
            jeopardizing themselves and the families they were receiving shelter from. Local
             homeless shelters tend to allow short term stays only. Thus it is not uncommon in the
            Virgin Islands for homeless mothers and children to move from house to house staying
            with friends or relatives. The families fit the McKinney-Vento Act defin ition of homeless
             in that they had "no fixed, regular, and adequate nighttime residence" of their own and
             often their trans ient presence in the place they were staying constituted a lease
            violation . For those who are not residing in a shelter at the time of appl ication, formal
             documentation of homelessness is difficult to get. We believe our staff thoroughly
             determined that the two families in question met the definition of homelessness and to
             deny them the points based on the inability to provide documented proof would be to
             largely render the homeless preference unusable.

            Recommendation No. 3 - ensure that enrollment and/or waiver requirements are
            met for chi ldren with disabilities.

            The Program concurs with Recommendation No. 3:
            This recommendation stems f rom Finding Number 3:
            (DHS) ...did not meet the required enrollment level for children with d isabilities



                         3011 Golden Rock · Christianstcd, St. Croix, Virgin Islands 00820 • (340) 773-2980 ph · (340) 773-6121 fux 

               Knud Hansen Complex Bldg. A • 1303 Hospital Ground • St. Thomas, Virgin Islands 00802 • (340) 774-1166 ph • (340) 774-3466 fax 





US. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                                                          12
            Response to IG Report dated March 31, 2014
            Page -4­

            Response:
            During schoo l year 2009-2010 the Head Start Program provided services to 105 ch ildren
            with disabilities, including suspected disabilities. The Performance Standards mandates
            that we provide disability services to at least 10% of our enrollment (89 ch ildren) .
            Children are not considered a child with a disability unless they have a formal service
            plan in place - an Individual Education Plan (IEP) or an Ind ividual Family Service Plan
            (IFSP). Suspected cases- even though they are documented - cannot be counted. The
            Program recruited and served 105 children w ith disabilities and suspected disab ilities­
            18% of our enro llment- broken down as fol lows:

                    Disab ility Status                      Number of Children Served
                   IEPs                                                 81
                   IFSPs                                                          6
                   Suspected Cases                                                18
                   Tota l Disabilities Cases                                      105

            The Virgin Islands Department of Education- Office of Special Services is the entity that
            generates official IEPs. Although the Program recruited sufficient children with
            suspected disabilities to exceed the minimum standard, all of the suspected cases that
            were referred to the VI Department of Education - Office of Special Services were not
            processed for IEPs by the end of the 2009-2010 school year. As they were not formally
            assessed as having a disabi lity, they could not be counted by the Program as a child
            with a disability. Corrective actions have been implemented: Waivers for applicable
            ensuing years were submitted and approved. Additional ly, new Memoranda of
            Agreement and increased communication and tracking of Head Start children's referrals
            for assessment by the Department of Education to ensure timely assessment of children
            suspected to have disabilities have been successful.

            Thank you for the opportun ity to provide comments and/or clarification of this draft
            report. If there are any questions or concerns, feel free to contact me at any of the
            below contact addresses and/or telephone numbers.

            Sincerely,
            Christopher E. Finch
            Christopher E. Finch
            Commissioner




                         3011 Golden Rock · Christianstcd, St. Croix, Virgin Islands 00820 • (340) 773-2980ph · (340) 773-6121 fux
               Knud Hansen Complex Bldg. A• 1303 Hospilal Ground • St. Thomas, Virgin Islands 00802 • (340) 774-1166 ph • (340) 774-3466 fax




US. Virgin Islands Head Start Enrollment (A-02-12-02002)                                                                                       13
